           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 THE SOCIAL SECURITY ADMINISTRATION’S
  WAGE RECONCILIATION PROCESS WITH
    THE INTERNAL REVENUE SERVICE

       June 2009    A-03-08-18069




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                              SOCIAL SECURITY
MEMORANDUM

Date:      June 16, 2009                                                              Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration's Wage Reconciliation Process with the Internal
           Revenue Service (A-03-08-18069)


           OBJECTIVE

           Our objective was to assess the effectiveness of the Social Security Administration
           (SSA) and Internal Revenue Service’s (IRS) reconciliation process in correcting SSA’s
           earnings records.

           BACKGROUND
                                                                       1
           SSA seeks to ensure Federal Insurance Contributions Act (FICA) reports of Social
           Security and Medicare wages are received timely and are accurately recorded on the
           Master Earnings File (MEF). 2 To help accomplish this, SSA and IRS records are
           compared annually in a process known as the Annual Wage Reporting (AWR)
           reconciliation. 3 Each quarter, employers are required to report to the IRS the total
           wages paid using the Employer’s Quarterly Federal Tax Return (Form 941). Employers
           are also required to report wages annually to SSA via Wage and Tax Statements
           (Form W-2) and the Transmittal of Income Tax Statements (Form W-3). SSA’s
           Earnings Modernization (EM) 1.5, receives the quarterly Form 941 data from the IRS,
           totals the data by tax year (TY), and compares that total to the total of Forms W-2
                                                            4
           processed by SSA for that employer for the TY. The system identifies those
           employers whose (1) totals match, (2) IRS totals exceed SSA totals, and (3) SSA totals
           exceed IRS totals. If the FICA and Medicare wages reported to both agencies agree,
           no action is necessary. If the wages differ, both agencies must resolve the differences.


           1
               26 U.S.C. § 3101 et seq.
           2
            The MEF contains all earnings data reported by employers and self-employed individuals. The data are
           used to determine eligibility for, and the amount of, Social Security benefits.
           3
               SSA, Program Operations Manual System (POMS), RM 02070.001 SSA/IRS Reconciliation Process.
           4
               The EM 1.5 system is used to track and process the reconciliation of cases.
Page 2 - The Commissioner


SSA Reconciliation Process

When more wages are reported to the IRS than to SSA, employees’ wages may not be
credited correctly to SSA’s records. SSA examines these cases and attempts to
                                                        5
resolve the difference without contacting the employer. When an effort to resolve the
discrepancy is unsuccessful or a resolution is not possible without employer assistance,
the reconciliation system generates notices and questionnaires that are mailed to
employers requesting additional information that could help resolve the discrepancies. 6
In November of the year following a given TY, SSA begins mailing notices to employers
whose reports for the given TY are discrepant or missing. A discrepant case is when
SSA-processed wages are lower than IRS wage amounts, and the difference is greater
                                                                                     7
than the value of a Social Security credit, also known as a quarter of coverage (QC). A
missing case is when IRS-processed wages are greater than a QC, and SSA has no
record of an employer report for the given TY. If SSA does not receive a response from
employers after 120 days 8 or the discrepancy remains, SSA sends employers a second
notice. 9

SSA considers a case to be resolved when it receives additional information from the
employer that raises the SSA wage report amount to an amount equal to or greater
than the IRS wage reports, regardless of whether the identifying information enables
posting the corrected wage amounts to an individual earnings record. When no
response is received after the two notices or the discrepancy is not resolved, SSA will
refer cases to the IRS for resolution. The Internal Revenue Code allows the IRS to
penalize an employer if it fails to file a complete and accurate wage report form. 10

IRS Reconciliation Process

When more wages are reported to SSA than to the IRS, the IRS will investigate the
discrepancy to determine whether the employer underpaid the Social Security tax. If
so, the IRS will assess the additional tax due.



5
 Examples of cases worked in-house include omitted decimal points or reporting of non-FICA wages as
FICA wages.
6
    See Appendices C and D for examples of a notice and questionnaires.
7
  POMS, RS 00301.210 Crediting Quarters of Coverage. A QC is given (maximum of 4) for each
increment of total earnings credited to the year. The total earnings credited may consist of nonagricultural
wages (including deemed military wages), railroad compensation, agricultural wages, and self-
employment income, to the maximum creditable for the year. For TY 2005, the QC was $920.
8
 The initial reconciliation notice allows 45 days for the employer to respond; however, SSA’s EM
1.5 system allows 120 days before a second notice is mailed to the employer.
9
    See Appendix D for an example of the follow-up notice sent to employers.
10
     26 U.S.C. § 6721.
Page 3 - The Commissioner


SCOPE AND METHODOLOGY
To perform our review, we obtained the TY 2005 AWR reconciliation file as of
March 2008. Our review of the file showed that SSA had reconciled FICA and
Medicare wages for approximately 6.9 million employers who submitted approximately
245 million Forms W-2. 11 Furthermore, the file showed SSA had processed Forms W-2
that included approximately $4.5 trillion in FICA wages and tips and $5.4 trillion in
Medicare wages, while the IRS had processed Forms 941 that included approximately
$4.5 trillion in FICA wages and tips and $5.5 trillion in Medicare Wages.

Our review focused on those employers who reported less FICA and Medicare wages
to SSA, since these cases represent SSA’s reconciliation workload. Whereas this
review focused on wage reporting at the employer level, we have several planned
audits that will focus on the wage reporting process at the employee level, to determine
the accuracy of the information posted to SSA’s records. For example, we have a
review planned that will examine fraudulent, overstated, and/or missing wages posted
to SSA’s MEF.

RESULTS OF REVIEW

The effectiveness of SSA’s reconciliation process could be improved. We determined
that for TY 2005, SSA could not resolve the reconciliation difference for about
248,000 (49 percent) of the 508,000 employers who reported less FICA and Medicare
wages to SSA. This occurred because

      •   140,281 employers did not respond to SSA’s reconciliation notices;
      •   40,921 employers were not provided a reconciliation notice;
      •   33,695 employers did not receive the reconciliation notices; and
      •   32,791 employers responded to the reconciliation notices; however, they
          provided wage information that did not resolve the discrepancy.

The 248,000 employers underreported to SSA approximately $31 billion in FICA wages
and tips and $38 billion in Medicare wages. Among the 248,000 employers, we
determined that:

      •   155,000 employers did not report any wages to SSA but had reported about
          $8.4 billion in FICA wages and tips and $9 billion in Medicare wages to the IRS.
          We estimate that the underreported wages could potentially relate to about
          464,000 employees who did not receive credit for their wages, and

      •   2,081 employers underreported $18.4 billion (59 percent) of the $31 billion in
          FICA wages. We estimate that the underreported wages could potentially relate
          to about 951,000 employees who did not receive credit for their wages.

11
     See Appendix B for more details about the Scope and Methodology.
Page 4 - The Commissioner



If these employees do not receive proper credit for their wages in SSA’s records, their
rights to future Social Security benefits or their benefit amount may be affected.

Additionally, we determined SSA had added, deleted, or changed FICA wage amounts
on Forms W-2 for approximately 32,000 employers. These changes contributed to the
32,000 employers underreporting about $28 billion in FICA wages to both SSA and the
IRS. Given that SSA did not inform employers about the internal adjustments made to
their wages, there is an increased risk these employers would not be able to resolve the
reconciliation discrepancies.

IRS RECONCILIATION CASES

Our review of the TY 2005 AWR reconciliation found that only 2.1 million (31 percent) of
the 6.9 million employers reported the same amount of FICA and Medicare wages to
both SSA and the IRS (see Figure 1). These employers reported about $171 billion in
FICA wages and tips and $207
billion in Medicare wages to both
                                              Figure 1: Summary of TY 2005
agencies. Additionally, we
found that 4.3 million employers                AWR Reconciliation Cases
reported more FICA and
Medicare wages to SSA than to                Wages                                    Higher
the IRS. Specifically, we found               Equal                                   Wages
the following.                                (31%)                                  Reported to
                                                                                      SSA, less
•   About 3.9 million employers                                                       than $100
    (56 percent) reported more        Higher                                            (56%)
    FICA and/or Medicare wages Wages
    to SSA, but the difference for Reported to                          Higher
                                                    Higher             Wages
    each employer was less than        IRS,
                                                    Wages            Reported   to
    $100. Overall, they              Resolved
                                                  Reported to           SSA,
    underreported to the IRS           (4%)
                                                     IRS,            greater than
    approximately $7.9 million in                 Unresolved            $100
    FICA wages and tips and                          (4%)                (5%)
    $7.7 million in Medicare
    wages. Because the difference was not substantial for these employers, it is less
    likely the IRS would investigate these cases.

•   About 363,000 employers (5 percent) reported more FICA and/or Medicare wages
    to SSA, and the difference for each employer exceeded $100. These employers
    reported about $33.6 billion more in FICA wages and tips and $41 billion more in
    Medicare wages. On average, the difference was about $92,000 in FICA wages,
    $800 in FICA tips, and $113,000 in Medicare wages for the employers. Among the
    363,000 employers were 17,275 employers who reported $100,000 to $5 billion
    more in FICA wages to SSA. The IRS routinely investigates these cases because
Page 5 - The Commissioner


      they could represent instances where employers underpaid employment taxes.
      However, we did not review the status or outcome of the IRS’s efforts.

SSA RECONCILIATION CASES

We determined that for TY 2005, SSA could not resolve the reconciliation difference for
248,000 (49 percent) of the 508,000 employers who reported less FICA and Medicare
wages to SSA than to the IRS (see Figure 2). This occurred mainly because either
SSA’s reconciliation notices did not reach the intended employers or employers did not
respond to the notices. The 248,000 employers underreported to SSA approximately
$31 billion in FICA wages and tips and $38 billion in Medicare wages, which in some
cases could affect their employees’ rights to future Social Security benefits or the
benefit amount.

Resolved SSA Reconciliation Cases

SSA’s reconciliation system identified about            Figure 2: Summary of SSA
508,000 cases where employers had                         Reconciliation Cases
reported less FICA and/or Medicare wages                         (TY 2005)
to SSA than to the IRS and the wages were
greater than the TY 2005 QC, which was
       12
$920. These employers reported to SSA
approximately $80.6 billion less in FICA                    Resolve     Unresolve
                                                            260,000       248,000
wages and tips and $95 billion less in                                     (49%)
                                                             (51%)
Medicare wages. SSA investigated most of
the cases to determine whether employers
had failed to submit Forms W-2 for their
employees. In some instances, SSA’s
in-house examination of the cases did not
determine whether the discrepancies
resulted from common reporting errors, such
as omitting a decimal point, or reporting non-FICA wages as FICA wages. Therefore,
SSA sent notices to employers requesting their assistance to resolve the
                13
discrepancies. As a result of the Agency’s efforts, it resolved the reconciliation
difference for about 260,000 (51 percent) of the 508,000 employers. However,
248,000 cases remained unresolved.




12
  About 189,000 employers reported more FICA and/or Medicare wages to the IRS, but the difference
was less than the TY 2005 QC. Overall, the difference was $42 million in FICA wages and tips and
$38 million in Medicare wages. SSA does not investigate these cases nor does it refer them to the IRS
because the amount is not substantial and would not affect an individual’s entitlement for Social Security
benefits or their benefit amount.
13
     See Appendices C and D for examples of SSA’s reconciliation notices.
Page 6 - The Commissioner


Unresolved SSA Reconciliation Cases

SSA was not able to resolve the reconciliation difference for about 248,000 (49 percent)
of the 508,000 employers who reported approximately $31 billion less in FICA wages
and tips and $38 billion less in Medicare wages to the Agency. About 155,000 of the
248,000 employers did not report any wages to SSA but had reported about $8.4 billion
in FICA wages and tips and $9 billion in Medicare wages to the IRS. On average, each
employer had reported about $54,000 in FICA wages and $57,000 in Medicare wages.
Although the amount of FICA wages reported by each employer was not significant,
given that they did not report these wages to SSA, none of their employees received
credit for the FICA wages. We estimate that about 464,000 employees could
potentially be impacted by the missing wages.

The remaining 93,000 employers had reported FICA and Medicare wages to both
agencies but had reported about $22.5 billion less in FICA wages and tips and
$29 billion less in Medicare wages to SSA. We determined that 2,081 of these
employers had underreported $18.4 billion (59 percent) of the $31 billion in FICA
wages. On average, the 2,081 employers underreported $8.8 million in FICA wages to
SSA. Although the underreported FICA wages could have resulted from incorrect
processing of earnings reports by SSA and/or incorrect processing of tax payments by
IRS, it also could have resulted from employers failing to submit a Form W-2 to SSA for
their employees. While the actual number of missing Forms W-2 is unknown for the
2,081 employers, we estimate that the $18.4 billion in underreported FICA wages could
potentially relate to about 951,000 employees who did not earn 4 QCs for TY 2005, 14
which could affect their entitlement to Social Security benefits.

Cases Too Late for Reconciliation Development

Among the 248,000 unresolved cases were about 41,000 cases the Agency identified
as being too late for development. SSA’s reconciliation system identified these cases
as being too late because the employers reported wages to SSA or SSA made internal
wage adjustments after June 2007, which was the cut-off date for the mass mailing of
reconciliation notices for TY 2005. Therefore, SSA did not perform any reconciliation
development for these cases, such as mailing notices to the employers to help resolve
the $4 billion in FICA wages and tips and $4.6 billion in Medicare wages that were
underreported. Furthermore, since these cases were deemed too late for development,
                                                             15
they were not referred to the IRS for further investigation.




14
  A QC is the basic unit for determining whether a worker is insured under the Social Security program.
No matter how high the earnings may be, an individual cannot earn more than 4 QCs in 1 year.
15
  We have planned separate reviews that will look at the internal wage adjustments that SSA performs
when they add, delete, or change wages to an employee’s record.
Page 7 - The Commissioner


Non-Responses and Undeliverable Notices

The remaining 207,000 cases were not resolved because, in most instances, the
employers did not respond to, or did not receive, the reconciliation notices SSA mailed
to them. SSA sends employers a notice along with a questionnaire requesting that they
provide the necessary wage information to resolve the reconciliation discrepancy. As
shown in Table 1, about 68 percent of the employers did not respond to the notices,
and 15 percent did not receive the notices because the notices were returned as
undeliverable for invalid addresses. Although 16 percent of the employers responded
to SSA’s notices, they provided wage information that did not resolve the discrepancy.
In addition, less than 1 percent could not respond to the notices because they were
deceased.

                 Table 1: Summary of Unresolved Reconciliation Cases
                 Reason for Unresolved            Number of
                  Reconciliation Cases            Employers        Percent
     No Response from Employer                                     140,281                68
     Received Response from Employer but the
     Discrepancy Remained                                           32,791                16
     Undeliverable – No Address Provided                            30,119                15
     Undeliverable with New Address Provided1                        3,576                2
     Undeliverable Due to Death of Employer                              9                0
     Total                                                         206,776               1002
     Notes:
        1. A third party, to include the U.S. Postal Service, provided the new address. SSA sent the
            second reconciliation notice to the new address, but the cases remained unresolved.
        2. Totals do not equal due to rounding.

SSA uses the address information provided by the IRS when mailing reconciliation
notices to employers. The address information is recorded in SSA’s Employer
Identification File (EIF), and the EIF serves as the main source for obtaining address
information for employers. During our review, we found that employers’ current
addresses were not always included in the EIF, and this may explain why SSA did not
receive responses from the 30,119 employers whose notices were returned as
undeliverable. In addition, it may explain why many of the 140,281 employers did not
respond to the reconciliation notices. Moreover, according to SSA staff, when there is
no response from employers within 120 days of the initial notice, 16 the reconciliation
system generates a second notice and sends it to the same address that appeared on
the EIF although the initial notices were returned because of invalid addresses.
Consequently, SSA unnecessarily spent resources mailing some of the second notices.

SSA staff stated they were aware the EIF did not always contain current addresses for
employers. Since 2005, they have had discussions with the IRS to obtain the most

16
  The initial reconciliation notice allows 45 days for the employer to respond; however, SSA’s EM
1.5 system allows 120 days before a second notice is mailed to the employer.
Page 8 - The Commissioner


current address information for employers. We asked SSA staff if they had considered
using the address that appears on the Form W-3 to contact the employer as it might
contain a more current address. SSA staff stated that they do not compare the Form
W-3 address for the employer to the address that appears in the EIF as part of the
reconciliation process. Furthermore, they stated the address is only captured on the
Form W-3 for those employers who submit their wages electronically to SSA. The
employer’s address is not captured in SSA’s system for those employers who submit
their wages via paper. Since the Form W-3 may contain a more current address for the
employer, we believe SSA should compare the Form W-3 address to the address that
appears in the EIF, and if they are not the same, use the Form W-3 address to mail the
second notices to employers with the most egregious wage reporting discrepancies.
Additionally, the Agency should determine whether it would be feasible for it to notify
employers electronically about their reconciliation discrepancies. For example, the
Agency could send notices via emails through a secure web access. In addition, the
Agency could upload an electronic version of the reconciliation notices on its Business
Services Online (BSO) for those employers who submit their wage reports
               17
electronically. We believe these additional steps could help reduce the number of
notices that are returned as well as the number of non-responses, which should help
increase the percentage of reconciliation cases that are resolved.

THE IMPACT OF WAGE ADJUSTMENTS ON THE RECONCILIATION PROCESS

We determined SSA did not always inform employers about internal adjustments it
made to employers’ wages, which led to the imbalance of FICA and Medicare wages
reported to both SSA and the IRS. We found that SSA had added, deleted, or changed
the FICA wage amounts on Forms W-2 for about 32,000 employers, which contributed
to about 17,000 employers reporting $12.6 billion less in FICA wages to SSA—
averaging about $759,000 per employer—and about 15,000 employers reporting about
$15.3 billion less in FICA wages to the IRS—averaging about $998,000 per employer
(see Table 2).

            Table 2: Summary of Employers with FICA Wage Adjustments
                                                                  FICA           Average
         Agency            FICA             Number of           Amount             Per
        Impacted           Wages            Employers           (billion)        Employer
       IRS             $100 or more             15,296            $15.3            $998,000
       SSA             $920 or more             16,637            $12.6            $759,000
           Total                                31,933            $27.9          $1,757,000

Usually, these internal wage adjustments occur when an individual reports overstated or
missing wages on their record. SSA staff reviews the supporting Form W-2 and makes
a determination on the specified wages. If SSA agrees with the claim, the wages are

17
  BSO is a suite of Internet services for businesses and employers to exchange information with SSA.
The main function of BSO is to allow employers to report Forms W-2 to the Agency electronically.
Page 9 - The Commissioner


added to, or deleted from, the individual’s record using the Item Correction system,
which enables appropriate SSA staff to correct an individual’s MEF record. 18

Affected employers may not be aware of these adjustments and their impact on their
reconciliation balance because SSA rarely informs them about the internal wage
adjustments. We have reported that SSA staff seldom sends letters to employers
informing them of certain internal adjustments (wages removed from a numberholder’s
earnings record because they were disclaimed) made using Item Correction. 19 As a
result, affected employers may not be able to resolve the reconciliation imbalance
because SSA did not make them aware of the internal adjustments. For example,
among the 17,000 employers who did not resolve their reconciliation discrepancies with
SSA were about 13,000 employers who either did not respond to SSA’s reconciliation
notices or did respond, but provided wage information that did not resolve the
discrepancy. We believe SSA needs to inform employers about internal wage
adjustments that will affect employers’ reconciliation balances. Making employers
aware of these adjustments will be beneficial to both SSA and the employers.

FUTURE ENHANCEMENTS TO THE RECONCILIATION PROCESS

The Agency plans to make future enhancements to the AWR reconciliation process to
help eliminate some of the manual processes, which can be error-prone and
time-consuming. The Unified Earnings Corrections (UEC) process will be a newly
developed application that will consolidate many of SSA’s legacy earnings corrections
and related systems to include the SSA/IRS reconciliation system. 20 As it relates to the
SSA/IRS reconciliation process, SSA expects that the development of the UEC will
eliminate much of the manual intervention required to perform earnings corrections and
increase the process of earnings data reconciliation. As part of the UEC, SSA plans to
make the following changes to the SSA/IRS reconciliation process.

•     Redirect paper reconciliation responses from Metro West to the Wilkes-Barre Data
      Operations Center (WBDOC). Currently, reconciliation responses are returned to
      Metro West for manual processing. With the development of the UEC application,
      SSA will send the paper responses directly to WBDOC for processing to allow forms
      to be scanned in a more timely fashion, using the current procedures and tools for
      processing submissions.


18
     EM 010.001 Introduction to Item Correction – Overview.
19
  Social Security Number Misuse for Work and the Impact on the Social Security Administration's Master
Earnings File (A-03-07-27152), September 2008.
20
   The following SSA systems will be included in the UEC processes: (1) Item Correction 2.8,
(2) Modernized OEO System/Online Tracking System, (3) Report Correction, (4) Self-employment
Adjustment System, (5) SSA/IRS Reconciliation System, (6) Suspense Query and Reinstate Request,
(7) Revised Earnings Adjustment Process, (8) Special Wage Payment and (9) Earnings Modernization
Itemized Statement Earnings Request and Output Service User Requested Earnings, excluding financial
management functionality.
Page 10 - The Commissioner


•   Scan and store paper reconciliation responses. The reconciliation notice responses
    and related materials (that is, Forms W-2, Forms W-3, completed reconciliation
    questionnaires, and Forms 941) will be scanned and stored so they can be queried
    and retrieved by other applications and SSA staff who process the reconciliation
    cases. Furthermore, it is expected that when fully implemented, this process will
    eliminate the need for a clerk to read the data from a form and manually enter the
    data, thus reducing errors in keying and speeding up corrections that require human
    intervention and analysis to close a reconciliation case.

SSA staff informed us that any new UEC application software enhancements related to
the SSA/IRS reconciliation process is at least 3 or 4 years away from implementation.

CONCLUSION AND RECOMMENDATIONS

Our audit found that about 49 percent (248,000) of SSA reconciliation cases for
TY 2005 remained unresolved because the employers (1) did not respond to SSA’s
reconciliation notices; (2) were not provided a reconciliation notice; (3) did not receive
the reconciliation notices; or (4) responded to the reconciliation notices; however, they
provided wage information that did not resolve the discrepancy. As a result, billions of
dollars in FICA and Medicare wages were underreported to SSA. Among the
248,000 employers, were 155,000 employers who failed to report about $8.4 billion in
FICA wages to SSA and 2,081 employers who underreported about $18.4 billion in
FICA wages to SSA. To ensure that SSA uses its resources efficiently, we believe the
Agency should implement our recommendations for those employers with the most
egregious wage reporting discrepancies, such as missing wages or significant
discrepant wages. Lastly, we believe SSA needs to take steps to inform employers
about the Agency’s internal wage adjustments because the adjustments may affect
employers’ reconciliation balances.

Accordingly, we recommend SSA:

1. Continue to work with the IRS to obtain current address information for employers.
2. Consider capturing the addresses of employers who submit paper wage reports on
   the Form W-3. This will allow SSA to have an updated address for the employer if
   there is a need to correspond with the employer.
3. Compare the employer address that appears on the Form W-3 to the address that
   appears on the EIF for the employer and if they are not the same, use the Form W-3
   address to mail the second notice to employers.
4. Evaluate the feasibility of notifying employers electronically about reconciliation
   discrepancies to help minimize the number of reconciliation notices that are returned
   as undeliverable and the number of non-responses.
5. Establish a process to inform employers about internal wage adjustments that will
   affect an employer’s reconciliation balance.
Page 11 - The Commissioner


AGENCY COMMENTS
SSA agreed with our recommendations. The full text of the Agency’s comments is
included in Appendix E.




                                            Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – First Reconciliation Notice Sent to Employers

APPENDIX D – Second Reconciliation Notice Sent to Employers

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                     Appendix A
Acronyms
AWR        Annual Wage Reporting
BSO        Business Services Online
EIF        Employer Identification File
EIN        Employer Identification Number
EM         Earnings Modernization
FICA       Federal Insurance Contributions Act
IRS        Internal Revenue Service
MEF        Master Earnings File
POMS       Program Operations Manual System
QC         Quarter of Coverage
SSA        Social Security Administration
TY         Tax Year
UEC        Unified Earnings Corrections
U.S.C.     United States Code
WBDOC      Wilkes-Barre Data Operations Center


Forms
Form 941   Employer’s Quarterly Federal Tax Return
Form W-2   Wage and Tax Statement
Form W-3   Transmittal of Wage and Tax Statements
                                                                       Appendix B
Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable Federal law, Social Security Administration (SSA) policy and
    procedures, and prior Treasury Inspector General for Tax Administration audits
    related to the SSA/Internal Revenue Service (IRS) reconciliation process. In
    addition, we reviewed an Office of Quality Assurance and Performance Assessment
    evaluation study of the reconciliation process.

•   Reviewed the agreement between SSA and the IRS that sets forth the manner by
    which SSA and the IRS will ensure the Combined Annual Wage Reporting is
    effectively and efficiently maintained.

•   Met with staff from the Division of Earnings Corrections and Use to determine the
    composition of the SSA/IRS reconciliation file for Tax Year (TY) 2005. Obtained
    from SSA, the SSA/IRS reconciliation file for TY 2005 and determined there were
    approximately 6.9 million employer records in the file.

•   Obtained and reviewed a data extract that included reconciliation notice information
    for TY 2005.

•   Obtained and reviewed a data file that contained about 207,000 reconciliation cases
    that were referred to the IRS for TY 2005.

•   Obtained and reviewed a data extract from the Master Earnings File of earnings
    records where wages were manually adjusted by SSA staff through the Item
    Correction system.

•   Met with staff from the Division of Employer Services to obtain a walk-through of the
    reconciliation process and gain an understanding of how the individual reconciliation
    cases are tracked within the Earnings Modernization 1.5 system.

•   Analyzed data relating to 508,000 SSA reconciliation cases to determine whether
    (1) the reconciliation process was effective in correcting the earnings records and
    (2) SSA mailed reconciliation notices to employers to resolve the imbalance.

We found data used for this audit were sufficiently reliable to meet our audit objectives.
The entity responsible for the maintenance of the SSA/IRS reconciliation file is the
Office of Earnings, Enumeration and Administrative Systems under the Deputy
Commissioner for Systems. On the operations side, the Office of Central Operation’s
Division of Employer Services is responsible for resolving wage reporting discrepancies
between the IRS and SSA resulting in more accurate accounting. Our work was



                                           B-1
conducted at the Philadelphia Audit Division, Philadelphia, Pennsylvania, between
June 2008 and February 2009. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




                                         B-2
                                     Appendix C
First Reconciliation Notice Sent to Employers
C-1
C-2
C-3
C-4
C-5
                                       Appendix D
Second Reconciliation Notice Sent to
Employers
D-1
D-2
D-3
D-4
D-5
D-6
                  Appendix E
Agency Comments
                                        SOCIAL SECURITY


MEMORANDUM


Date:      June 5, 2009                                                         Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Review of Social Security Administration’s
           Wage Reconciliation Process with the Internal Revenue Service”
           (A-03-08-18069)--INFORMATION

           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                        E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“SOCIAL SECURITY ADMINISTRATION’S WAGE RECONCILIATION PROCESS
WITH THE INTERNAL REVENUE SERVICE” (A-03-08-18069)

We have a cross-component workgroup that is evaluating earnings-related issues. This
workgroup has been reviewing several of the specific issues that you raised in your
recommendations. Our responses to your recommendations are as follows.

Recommendation 1

Continue to work with the Internal Revenue Service (IRS) to obtain current address information
for employers.

Comment

We agree. We will continue working with IRS to obtain the most current address information for
employers.

Recommendation 2

Consider capturing the addresses of employers who submit paper wage reports on the Form W-3.
This will allow SSA to have an updated address for the employer if there is a need to correspond
with the employer.

Comment

We agree. This method will require us to change our current Wilkes-Barre Data Operations
Center process of capturing and submitting the information to the Annual Wage Reporting Batch
System. We will consider the necessary system enhancement along with other competing
priorities. Along with a system enhancement, this process will require more workyears to scan
and key the additional data.

Recommendation 3

Compare the employer address that appears on the Form W-3 to the address that appears on the
Employer Identification File (EIF) for the employer and if they are not the same, use the Form
W-3 address to mail the second notice to employers.

Comment

We agree. We will explore a system enhancement that compares the address on the Form W-3
with the address on the EIF, and if they are not the same, to utilize the Form W-3 address to mail
the second notice. Nevertheless, only 30 percent of employers submit Form W-3 for
reconciliation cases. When an employer does not submit a paper Form W-3, we create a




                                               E-2
“dummy” Form W-3 to include only the employer identification number, employer name, and
wage total. Additionally, if we were to receive a greater number of Forms W-3 directly from an
employer, it is neither feasible nor cost-effective for us to conduct a manual comparison of the
Form W-3 and the EIF because of the stringent reconciliation processing deadlines.

Recommendation 4

Evaluate the feasibility of notifying employers electronically about reconciliation discrepancies
to help minimize the number of reconciliation notices that are returned as undeliverable and the
number of non-responses.

Comment

We agree. We will explore ways to capture e-mail addresses of paper filers. We currently have
plans to develop a new application called the Earnings Case Management System (ECMS),
which would notify employers electronically about reconciliation discrepancies. The ECMS
application software is at least 3 to 4 years away from a formal proposal, resource allocation, and
program specifications.

Recommendation 5

Establish a process to inform employers about internal wage adjustments that will affect an
employer’s reconciliation balance.

Comment

We agree. We will explore the feasibility of a systems application to generate a notice to
employers about internal wage adjustments.




                                                E-3
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Cylinda McCloud-Keal, Director, Philadelphia Audit Division

   Carol Madonna, Audit Manager

Acknowledgments

In addition to those named above:

   Frank Trzaska, Auditor-in-Charge

   Richard Devers, IT Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-03-08-18069.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
